                           Federal Emergency Management Agency
                                     Office of Inspector General – Audits Division
                                             Western District Audit Branch
                                               1111 Broadway, Suite 1200
                                            Oakland, California 94607-4052



                                               November 25, 2002


MEMORANDUM FOR:                    Karen E. Armes
                                   Acting Regional Director, Region IX




FROM:                              Robert J. Lastrico
                                   Western District Audit Manager

SUBJECT:                           State of California Department of Forestry and Fire Protection
                                   Sacramento, California
                                   FEMA Disaster Number 1155-DR-CA
                                   Public Assistance Identification Number 000-92003
                                   Audit Report Number W-03-03

The Office of Inspector General audited public assistance funds awarded to the California
Department of Forestry and Fire Protection, Sacramento, California (CDF). The objective of the
audit was to determine whether CDF expended and accounted for FEMA funds according to
Federal regulations and guidelines.

CDF received a public assistance award of $6.1 million from the California Office of Emergency
Services (OES), a FEMA grantee, for emergency response and repairs to property damaged as a
result of flooding that occurred from December 28, 1996, to April 1, 1997. The award provided
75 percent funding for one large project and fourteen small projects.1 The audit covered the
period December 28, 1996, through October 20, 1999, and included a review of the one large
project with a FEMA award of $5.8 million.

We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included a review
of FEMA’s, OES’ and CDF’s records. We held discussions with appropriate Federal, State, and
CDF officials, and performed other auditing procedures we considered necessary under the
circumstances.

1
  According to Federal regulations in effect at the time of the disaster, a large project was defined as a project
costing $46,000 or more and a small project was defined as one costing less than $46,000.
                                            RESULTS OF AUDIT

CDF generally expended and accounted for the $6.1 million in public assistance funds according
to Federal regulations and FEMA guidelines. However, CDF’s claim for project 17373 included
$230,837 in questionable costs (FEMA share - $173,128). The questionable costs consisted of
$184,000 in excessive, duplicate, and unsupported equipment costs, and $46,837 in excessive
force account labor costs.

A. Excessive, Duplicate, and Unsupported Equipment Costs. CDF’s claim included $184,000 in
   equipment costs that were excessive, duplicate, or unsupported as follows:

      •    Excessive Equipment Costs. CDF’s claim included $177,765 for force account
           equipment costs that exceeded either FEMA’s mileage or hourly rates in effect at the time
           of the disaster.   For equipment usage costs based on mileage rates, CDF claimed
           $142,889 in excess of FEMA’s established rates. For example, in one instance, CDF
           claimed 91 cents per mile for a Conservation Camp Vehicle2 while the FEMA approved
           rate was 47 cents per mile for an equivalent type of vehicle. For equipment usage costs
           based on hourly rates, CDF claimed $34,876 in excess of FEMA’s established rates. For
           example, in four instances, CDF claimed a rate of $83.40 per hour for a medium size
           bulldozer while the FEMA approved rate for the same equipment was $31 per hour.
           According to Federal regulation 44 CFR 206.228(a)(1), the FEMA Schedule of
           Equipment Rates will be the basis for reimbursement in all cases where an applicant does
           not have rates established or approved under State guidelines. This regulation also
           provides that in cases where local guidelines are used to establish equipment rates,
           reimbursement will be based on the lower of the stated rates established or the FEMA
           rates.

           CDF officials disagreed with our results, stating that while the rates did not conform to
           FEMA approved rates, they were based on a formula that was consistently applied and
           reasonable. Those officials also stated CDF’s rates were audited and approved by OES.
           CDF officials however, could provide neither documentation showing how each rate was
           developed nor proof that the rates had been audited and approved by OES. Further, there
           was no documentation at OES to support that CDF equipment rates were reviewed and
           approved. Because CDF claimed equipment usage costs that were based on mileage and
           hourly rates that exceeded FEMA’s established rates, we question $177,765.

      •    Duplicate Equipment Costs. CDF’s claim included $4,591 in duplicate costs. For
           example, CDF double claimed $1,253 of mileage incurred from January 6, 1997, through
           January 17, 1997. According to Office of Management and Budget Circular A-87,
           Attachment A, Paragraph C, costs are allowable under Federal awards if they are
           determined in accordance with generally accepted accounting principles and are
2
    Capacity for more than 16 passengers.


                                                   2
       adequately documented. Duplicate costs claimed by CDF cannot be construed to be an
       allowable cost; consequently, we question $4,591.

   •   Unsupported Equipment Costs. CDF’s claim included $1,644 in charges not supported
       with documentation proving the costs were incurred. According to Federal regulation
       44 CFR 13.20 (b), subgrantees are required to maintain accounting records that identify
       how FEMA funds are used. Because there was no documentation to support the $1,644
       claimed by CDF, we questioned that amount.

B. Excessive Force Account Labor Costs. CDF’s claim included $46,837 of excessive force
   account labor costs relative to the overtime costs claimed. CDF applied an overtime rate of
   $27.20 to calculate the labor costs of 4,665 hours worked by a State Fire Ranger. However,
   using CDF’s own labor agreement in effect at the time of the disaster, we determined that the
   actual rate was $17.16 (a difference of $10.04). While CDF officials disagreed with our
   results, they did not provide any documentation showing that the rate conformed to
   established policy and labor agreements.

   According to OMB Circular A-87, Attachment B, Paragraph 11a, compensation for
   personnel services are allowable provided the compensation conforms to established policy
   applied to both Federal and non-Federal activities. Since claiming a higher rate was
   inconsistent with CDF’s labor agreement, we question the $46,837 in excessive force account
   labor costs.

                                    RECOMMENDATION

We recommend that the Regional Director, in coordination with OES, disallow $230,837 in
questioned costs.

             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed our results with OES and CDF officials on April 16, 2002. We also held a
follow-up meeting with CDF officials on June 18, 2002. CDF officials disagreed with the
findings.  We also discussed the results of our audit with Region IX officials on
September 11, 2002.

Pursuant to FEMA instruction 1270.1, please advise this office by January 24, 2003, of the
actions taken to implement our recommendations. Should you have any questions concerning
the report, please contact me at (510) 627-7011. Key contributors to this assignment were
Humberto Melara, Ken Valrance, and Antonio Fajardo.




                                               3
